2311 Douglas Street.
Omaha, Nebraska 68102-1214

IOCKLE
L
I

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-1724
DAVID JAMES MURPHY,
Petitioner,
v.
CITIGROUP GLOBAL MARKETS, INC.,
CITICORP SECURITIES SERVICES, INC.,
AND OKAN PEIUN,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR
REHEARING FROM ORDER DENYING PETITION FOR WRIT OF CERTIORARI in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 1286 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 7th day of October, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

Notary Public

Affiant

41521

